<html>
<title> - REAUTHORIZATION OF THE NATIONAL TRANSPORTATION SAFETY BOARD</title>
<body><pre>[Senate Hearing 107-1042]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 107-1042

      REAUTHORIZATION OF THE NATIONAL TRANSPORTATION SAFETY BOARD

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 25, 2002

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



91-424              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

              ERNEST F. HOLLINGS, South Carolina, Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska
    Virginia                         CONRAD BURNS, Montana
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
JOHN B. BREAUX, Louisiana            KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
RON WYDEN, Oregon                    SAM BROWNBACK, Kansas
MAX CLELAND, Georgia                 GORDON SMITH, Oregon
BARBARA BOXER, California            PETER G. FITZGERALD, Illinois
JOHN EDWARDS, North Carolina         JOHN ENSIGN, Nevada
JEAN CARNAHAN, Missouri              GEORGE ALLEN, Virginia
BILL NELSON, Florida
               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel
      Jeanne Bumpus, Republican Staff Director and General Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 25, 2002....................................     1
Statement of Senator Nelson......................................    13
Statement of Senator Rockefeller.................................     1

                               Witnesses

Blakey, Hon. Marion, Chairman, National Transportation Safety 
  Board..........................................................     2
    Prepared statement...........................................     5

 
      REAUTHORIZATION OF THE NATIONAL TRANSPORTATION SAFETY BOARD

                              ----------                              


                         TUESDAY, JUNE 25, 2002

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:45 a.m. in room 
SR-253, Russell Senate Office Building, Hon. John D. 
Rockefeller IV, presiding.

      OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER, IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Rockefeller. There is an embarrassment of absences 
this morning, which is not deliberate, nor is it personal. It 
is just that one of the two parties is having a caucus, which 
evidently relates to the amount of time that one can serve on 
Committees, which would be a very important caucus. 
Fortunately, it is not the one that I belong to, and so I feel 
relatively comfortable here, and I am extremely glad to see 
you. We have a history which the Committee need not know about 
and which is nothing they would wish to know about, but my 
mother and you worked together, and that is something that I 
certainly will never forget.
    It has been a long time since September 11, and we have 
done a lot of work on security-related issues and not much on 
safety-related issues, and both are important and, of course, 
NTSB's job.
    And Good morning, Senator Nelson. This is actually a 
hearing that has been going on for about 25 minutes.
    [Laughter.]
    Senator Rockefeller. We started about 30 seconds ago. You 
do a superb job at safety, but it is in danger of being 
bypassed, in a sense, or put backwards a little bit because of 
the question of security. We cannot let that happen, and I 
think that under you, Ms. Blakey, the NTSB has done excellent 
work, and we have every expectation that will continue.
    Now, I think it is essential that we give you the tools to 
do what you need to do, and in this case you have some 
requests. You need additional staff, and I want you to talk 
about that, and I also think that you are looking at building a 
facility where you cannot only train your own people but you 
can train other people, and a new facility is not 
inconsequential in these budget days, but everything that has 
gone on really has had to do with an investigation of 
accidents, which has become incredibly important in spite of 
the sort of preoccupation with security.
    So funding for this project is needed and it is 
appropriate, in my view at least, and we will have to see how 
things proceed. You want some statutory changes, and one of 
these would give you priority in marine investigation. It is a 
very interesting subject to me, because you currently share 
this with the Coast Guard. Two years ago we looked at this 
issue. We directed NTSB and the Coast Guard work together. Was 
that a really naive mistake on our part, or does it mean the 
NTSB or the Coast Guard, the one or the other or the both, 
conduct the usual business of Washington. I am interested in 
your views on that, and we were hoping to get a memorandum of 
understanding to address this, quote, jurisdictional issue, all 
of which seems to have less meaning post 9/11.
    And then finally you request language that would relieve 
NTSB of the responsibility for family assistance in cases of 
accidents caused by intentional criminal acts, and would give 
responsibility for family assistance in these circumstances to 
the FBI, and I think we want to talk a little bit about that to 
make sure (1) that it is the right thing to do, and (2) that 
the FBI could do it, and it's not just putting-off the 
responsibility but, in fact, something the FBI would be in a 
position to do. They are fairly busy folks these days.
    I think that NTSB has been doing a lot better job over the 
last few years, and I would be comfortable transferring such 
responsibility to another organization from that point of view, 
but I really would want to make sure that the so-called new 
organization could handle the responsibility, because dealing 
with families of transportation accident victims is, as you 
know, very serious and deep stuff.
    So I hear what you're saying, I'm glad you're here, and I'm 
glad that Senator Nelson is here, and he always has important 
things to say and will want to do so at this very instant.
    Senator Nelson. Mr. Chairman, I follow your enlightened 
leadership.
    Senator Rockefeller. You see how we are around here.
    [Laughter.]
    Senator Rockefeller. We welcome your statement.

          STATEMENT OF HON. MARION BLAKEY, CHAIRMAN, 
              NATIONAL TRANSPORTATION SAFETY BOARD

    Ms. Blakey. Good morning, Chairman Rockefeller, Senator 
Nelson. I am very pleased to be before you today representing 
the National Transportation Safety Board. As you know, we have 
a limited time this morning, so I will submit my longer 
comments for the record and simply take a few moments to 
summarize our request, which Chairman Rockefeller already 
clearly has a good grip on at this point.
    As you know, it is my responsibility to advance the board's 
critical safety mission, a mission that can't be achieved 
alone. In fact, the help of this Committee, the support you 
have given over the years, has been critical in making possible 
the work that we have undertaken. So as I approach you today 
with these requests, I think we are keeping a collective 
objection in mind in this agency's reauthorization.
    The Board's request asked essentially for three things. We 
ask for, number one, the budget and the personnel levels to 
sustain the NTSB's training academy. We are very excited about 
this new academy, which is scheduled to open in the fall of 
2003.
    Second, we are looking for a clarification of our family 
affairs responsibilities when transportation accidents that 
involve intentional criminal acts. And third, we are seeking 
full independent investigative authority for the marine 
accidents that we investigate.
    First, the NTSB requests a budget level capable of 
sustaining the NTSB's soon-to-be-built academy. We have broken 
ground and the walls are going up. The NTSB has for many years, 
of course, provided training for its investigators and for 
other accident investigators from foreign lands who request our 
assistance. The board also provides family affairs training, 
and we provide assistance to international agencies and groups 
on that front as well.
    The academy, as I say, is expected to open next fall, and 
it will enable us to consolidate and formalize all of the 
training activities that we are undertaking and expand them. 
The academy is also going to house the TWA-800 reconstruction 
that I know you are familiar with. We will be rebuilding it at 
the Academy. We have on-site as well as state-of-the-art 
classrooms, a simulation court, all of the things that are 
really going to make this a first-rate accident investigation 
and training academy for safety.
    Helping to ensure the best investigative techniques and 
high standards worldwide at present is essential for thorough, 
independent accident investigations, and I stress this because 
we are talking about an increasingly interdependent global 
system, and therefore the extensions that we make to others 
abroad as well as to our own and to a larger group of first 
responders in training them what needs to happen in accident 
sites, all of this is what the academy is all about.
    Next, we do request your assistance in clarifying our role 
in terms of our Office of Family Affairs when a disaster is 
deemed criminal, and the investigation at that point is 
transferred to the FBI. We have got good reasons for this. As 
you know, the Aviation Family Assistance Act triggers our 
family affairs response regardless of the suspected source of 
the accident. The intent of the act is to provide family 
assistance without any delay due to uncertainty about which 
agency ultimately may take control. The Board fully supports 
the letter of this and the spirit of the law, and we think the 
request we are making of you today is consistent with both of 
those.
    Once an investigation, however, is transferred to the FBI, 
any uncertainty about the lead agency at that point is 
resolved, and the Board believes that responsibility for family 
assistance should be transferred as well. At this point, the 
accident site is deemed a crime scene, and the situation 
changes. Access is restricted, information about the 
investigation becomes tightly controlled, and understandably 
so, much more so than when the NTSB has investigative 
authority.
    For this reason, the FBI's own Office of Victim's 
Assistance is in a better position to make decisions regarding 
victim recovery, identification of remains, and the extent to 
which information can or cannot be shared with the families of 
victims. The events of September 11 demonstrated that these 
decisions should be made by the agency that is leading the 
investigation. The NTSB's Office of Family Affairs will be 
ready and willing to provide any assistance that the FBI 
requests, but they do need to be the lead.
    Finally, to turn to the third aspect of our request today, 
the NTSB requests full, independent investigative authority in 
the marine accidents we investigate. Currently, we have such 
authority in all modes except marine--aviation, railroad, 
pipeline, highway, railroad. The NTSB's independent accident 
investigation authority has never interfered with any of DOT's 
statutory responsibilities.
    In fact, we have developed a very healthy relationship with 
agencies such as the FAA and the FRA, which has been 
significant in improving transportation overall. All of the 
other modes of transportation have benefited from our 
investigations for over 30 years, and passengers and crew who 
rely on marine transportation, as well as the public that is 
affected by maritime accidents, should be given the full 
benefit of a system that is similar to that in terms of checks 
and balances.
    It is important to recognize that in granting the NTSB's 
request, it will in no way fundamentally affect the 
responsibilities of the Coast Guard. In fact, we ask only to 
examine those accidents that pose the most significant risk to 
the traveling public, a very limited number of accident 
investigations that offer the greatest potential for yielding 
safety improvements.
    Why? Because our goal is to protect the American public by 
preventing future accidents. It is our sole mission. It is what 
makes us different, and for this reason we must have the 
authority to lead a limited number of accident investigations 
which we believe will allow us to best improve safety in the 
marine area as well.
    As a result of NTSB investigations, a number of important 
marine safety improvements have taken place that may not 
otherwise have resulted from Coast Guard investigations. This 
is so because the Coast Guard's focus is primarily on 
compliance with current regulations which, of course, it 
develops and enforces. For example, as a result of Safety Board 
investigations, large cruise ships are now required to have 
sprinkler systems, smoke detectors, and improved permanent fire 
barriers.
    In addition, all commercial fishing vessels are required to 
carry emergency radio beacons, survival suits, and life rafts, 
and seven cruise lines have now either installed or are in the 
process of installing locally sounding fire alarms which will 
alert passengers and crew in their quarters when there may be a 
fire threat.
    We commend the Coast Guard for its actions in making these 
recommendations a reality. They do have the responsibility for 
carrying it out. However, the current investigative 
relationship between the Coast Guard and the NTSB frequently 
does have a detrimental effect on NTSB investigations. Because 
the Coast Guard investigation focuses on enforcement and 
penalties, it makes it difficult for the NTSB to obtain the 
kind of cooperation we often employ, and we rely on in terms of 
all the parties to the accident to determine both the probable 
cause of the accident and to develop safety recommendations to 
improve marine safety for all Americans.
    When we investigate accidents, there is really no need to 
duplicate the effort as well. Currently, when the NTSB 
investigates a marine accident, two reports are issued, one by 
the NTSB, one by the Coast Guard. In today's climate, when we 
are talking about safety and security being threatened on a 
daily basis, we need to maximize our resources and avoid 
redundancy that affects not just our agencies but others at the 
State and local level and in the private sector who receive 
these reports and respond to the recommendations and the 
analysis.
    As you are aware, during our last reauthorization we 
requested congressional assistance in resolving this issue. You 
listened to our request, and you responded. The National 
Transportation Safety Board Amendments Act of 2000 included a 
deadline of 1 year for the revision of the interagency 
memorandum of understanding to clarify with the Coast Guard the 
circumstances in which NTSB would lead marine investigations.
    Over the past year, both agencies have tried. The NTSB and 
the Coast Guard met on numerous occasions and exchanged 
proposals to amend the MOU. Unfortunately, the negotiations 
between the agencies appear to be at a standstill, and for this 
reason we are again asking for congressional intervention. 
Although the board is asking for congressional intervention, I 
tell you, we continue to try. I have discussed the matter with 
Secretary Norman Mineta. I plan soon to meet, in fact, with 
Deputy Secretary Michael Jackson and the new Commandant, 
Admiral Tom Collins.
    Mr. Chairman, I would leave the Committee with one last 
thought regarding our request. The NTSB is a very small agency 
relative to the Coast Guard, and this has been a significant 
problem for us, with a great deal of time and effort invested 
in it for more than 10 years. That is how long we have been at 
this.
    Currently in the marine area the NTSB operates with less 
independence, and less efficiency than in any other mode. If we 
are to keep the public trust that results from fully 
independent accident investigations, we need your support to 
permit the NTSB to lead a small number of marine 
investigations.
    I thank you for the opportunity to appear before you, and I 
would be happy to respond to any questions you have. Thank you.
    [The prepared statement of Ms. Blakey follows:]

        Prepared Statement of Hon. Marion C. Blakey, Chairman, 
                  National Transportation Safety Board

    Good morning Chairman Rockefeller and Members of the Committee. I 
am pleased to appear before you today on behalf of the National 
Transportation Safety Board (NTSB) regarding our request for 
reauthorization.
    Mr. Chairman, I was extremely honored when President Bush nominated 
me for the position of NTSB Chairman--a position I have held for about 
nine months. I believe the agency has a critical mission, to protect 
and advance public safety in all modes of transportation, and I am more 
and more impressed with the men and women of the NTSB and the work they 
do to advance that mission each and every day. I would be remiss, 
however, if I did not acknowledge that many of the accomplishments of 
the NTSB would not have occurred without the continued support of this 
Committee.
    As you know, the work of the NTSB was last reauthorized in 2000, 
and this Committee supported many new Safety Board initiatives, such as 
true overtime for Safety Board investigators at accident sites, the 
authority to enter into agreements to be compensated for our 
instructional or analytical services, and the clarification of the 
Department of Justice/NTSB relationships during accident 
investigations. I was on-scene at the American Airlines flight 587 
crash in Queens, New York, and I can personally tell you that the on-
scene relationship between the NTSB and FBI worked well. I thank you 
for your support and I look forward to working with you to further the 
interests of transportation safety.

SAFETY BOARD ACTIVITIES
    Before I present our request for our three-year reauthorization, I 
would like to highlight several Board activities since our last 
reauthorization hearing. The Board continues its core mission of 
investigating accidents, issuing safety recommendations, and 
coordinating family affairs activities. Since the Board's last 
reauthorization appearance in July 1999, until mid May, 2002, we have 
investigated over 5,988 aviation accidents, issued 4 major aviation 
reports, including TWA flight 800 and American Airlines flight 1420, 
and 3 studies; 111 highway accidents and issued 5 major highway 
reports, including the motorcoach accident at New Orleans; 13 marine 
accidents, one special investigation, and issued 6 major marine 
reports, including reports involving the Ecstasy the Morning Dew; 8 
pipeline/hazardous materials accidents and issued 5 major pipeline/
hazardous materials reports, including as the pipeline explosion in St. 
Cloud, Minnesota; and 56 railroad accidents, and issued 15 major 
railroad reports, including the Amtrak grade crossing accident in 
Bourbonnais, Illinois. We have issued a total 645 safety 
recommendations. The modal breakdown follows: aviation--270; highway--
124; intermodal--18; marine--84; pipeline--30; and railroad--119.
    The Safety Board has also begun work on the NTSB Training Academy, 
a major training initiative to increase the knowledge and skill of our 
investigators. As you may recall, in 1999 the Rand Corporation issued a 
report that strongly recommended that the Safety Board devote more 
resources and staff to keep its investigators on the cutting edge of 
investigative technology, skill, and performance.
    In the aftermath of the tragedies that occurred on September 11, 
2001, for many weeks the Board assisted the Federal Bureau of 
Investigation (FBI). Over 60 Safety Board employees worked around the 
clock in Virginia, Pennsylvania, New York, and at our headquarters in 
Washington, DC., assisting with aircraft parts identification, 
searching for and analyzing flight recorders, and working with the air 
carriers to assist the victims' families. Although Safety Board 
employees frequently view the aftermath of aviation disasters, nothing 
in their experience prepared them for the magnitude of the September 
11th devastation. I applaud all involved, and want to take this 
opportunity to publicly commend them for their accomplishments.

Safety Recommendations
    The most important results of any accident investigation, no matter 
what mode of transportation, are the safety recommendations. It is 
clear that adoption of our safety recommendations saves lives.
    The Safety Board currently has over 1,100 open safety 
recommendations, and some of them have been open for a number of years. 
Approximately half of the recommendations are to the Department of 
Transportation (DOT) and its modal administrations, with most of the 
remaining half to the private sector or the States. Because we have 
been typically receiving progress reports on only about one-third of 
our open recommendations, we are working with the DOT modal 
administrations to get an update on the status of each and every one of 
them and to ensure that in the future we receive at least an annual 
report. As part of this effort, for all that remain open I have begun 
to meet with each of the modal agency administrators to discuss which 
of the open recommendations can and should be accomplished within the 
next two years, and have already met with the Administrators of the 
National Highway Traffic Safety Administration (NHTSA), the Federal 
Railroad Administration (FRA), and the Federal Transit Administration 
(FTA). These meetings have been productive and are helping to 
accomplish the goals of a number of open safety recommendations.
    I am also focusing special attention on our advocacy and outreach 
activities. This includes working with consumer and industry 
organizations to garner support for our safety recommendations. In 
addition, we are going to step up our efforts to work with the states 
to implement recommendations we have made to them. Our Board is 
launching a new program to help. The five Members have each agreed to 
be responsible for ten states. Board members will meet with state 
officials and departments to promote the passage of legislation. We 
will also address open safety recommendations, speak at public events, 
target print, radio and television media, and establish contacts with 
important state groups.
    We are confident that our Members' state strategy will prove to be 
successful, and I believe these steps will reduce the time it takes--
currently a five-year average--to implement the improvements that we 
see as necessary for the safety of the traveling public.

Aviation
    As you know, the NTSB investigates every accident involving civil 
aircraft, accidents involving both military and civil aircraft, and 
aircraft accidents involving public aircraft other than aircraft 
operated by the Armed Forces or by the United States intelligence 
agencies. On-going NTSB major aviation investigations include crashes 
involving: Alaska Airlines flight 261 near Port Hueneme, California; 
Emery Worldwide Airlines flight 17 in Rancho Cordova, California; 
Southwest Airlines flight 1455 in Burbank, California; and American 
Airlines flight 587 in Belle Harbor, New York. The Safety Board plans 
to hold a public hearing on the American Airlines accident in our Board 
Room and Conference Center in October 2002.
    The Safety Board also recently sent investigators to assist in the 
foreign aviation accidents that occurred: May 25, 2002, near Makung 
Island, Taiwan, involving a China Airlines Boeing 747; May 7, 2002, in 
Dalian, China, involving a China Northern Airlines MD-82, and Tunisia, 
involving an EgyptAir Boeing 737; May 4, 2002, in Nigeria involving an 
EAS Airlines BAC 1-11; April 27, 2002, in San Salvador involving a 
Centurion Air Cargo DC-10; and the April 15, 2002, accident involving 
an Air China Boeing 767-200 in Pusan, South Korea.
    A number of recent aviation safety accomplishments that have 
resulted from NTSB aviation investigations:
    Runway Safety--Runway safety has been a concern of the NTSB for 
many years, and we are pleased that recent accomplishments have been 
made in this area as a result of NTSB investigative activities--some 
without the need for safety recommendations. For example, in December 
1999, an Emery DC-8 collided with a parked Gemini DC-10 while taxiing 
on a ramp at Indianapolis International Airport, resulting in 
substantial damage to the DC-8 aircraft. As a result of the 
investigator's discussions with the FAA and the ramp control and ground 
handling firm, ground operations at the airport were revised.
    Other runway safety accomplishments resulted from suggestions made 
by NTSB investigators following potentially catastrophic incidents in 
New York, Denver, Philadelphia, Chicago and Juneau. Remedies ranged 
from improved pushback and ramp and controller procedures, to proper 
runway markings and safety education for ground crews that service air 
carriers.
    Lubrication and Inspection Procedures for Horizontal Stabilizer 
Acme Screws and Acme Nuts--The NTSB investigation of Alaska Airlines 
flight 261 raised concerns regarding industry maintenance practices 
associated with the MD-80's horizontal stabilizer trim system and 
potential adverse effects caused by the use of inappropriate greases or 
mixtures of incompatible greases. As a result of issues raised in our 
investigation, the Federal Aviation Administration (FAA) ordered 
inspections of the stabilizer control mechanisms of over 1,000 aircraft 
and held a forum to address grease and lubrication issues. The FAA is 
also working with the manufacturer to rewrite the aircraft's 
lubrication procedures.
    Pilot Training on Transport-Category Airplanes--The investigation 
of the American Airlines flight 587 crash in Belle Harbor, New York, 
has a number of different areas of inquiry, but one aspect has raised 
questions regarding pilot training programs. Many programs do not 
include information about the structural certification requirements for 
the rudder and vertical stabilizer on transport-category airplanes. The 
NTSB issued a recommendation requesting that the FAA require the 
manufacturers and operators of transport-category airplanes establish 
and implement pilot training programs that address the issues of pilot 
rudder inputs we identified in our recommendation letter, and to review 
all existing and proposed guidance and training provided. The Safety 
Board notes that the FAA has taken positive action regarding our 
recommendations. In an April 2002 letter, they advised that they had 
reviewed operators' training programs, issued a notice to principal 
operations inspectors of the potential subsequent effects on the 
vertical stabilizer resulting from improper rudder use, and contacted 
manufacturers and industry organizations to inform them that it shares 
the Board's concern regarding pilot training on the use of the rudder 
in transport-category airplanes.

Highway
    Until recently, the Board's Office of Highway Safety has, until 
recently, conducted in-depth investigations of single, major accidents 
and issued safety recommendations on issues resulting from those 
investigations. The accidents investigated generally involved large 
loss of life and property damage, but in many cases may not have been 
representative of the typical highway accidents occurring daily, 
nationwide. Now, because of the Board's limited highway staff, we 
devote our resources to those accidents that have a significant impact 
on the public's confidence in highway transportation safety and 
highlight national safety issues. Currently under investigation are 
four school or commercial bus accidents, two 15-passenger van 
accidents, a grade crossing accident, a work zone accident, an accident 
that occurred on the Washington Beltway on February 1, 2002, when the 
driver of an SUV lost control of her new vehicle in windy weather while 
talking on a cell phone, and the May 26, 2002, collapse in Oklahoma of 
a bridge on Interstate 40 after being struck by a barge. We are also 
conducting a special investigation regarding 15 passenger vans.
    The Safety Board is also continuing a high level of advocacy work 
with the states on a number of important highway safety issues, 
including booster seats, hard core drunk driving, graduated driver 
licensing, the need for personal floatation devices and boating 
instruction.
    The NTSB's Office of Highway Safety is focusing its resources on 
identifying trends from the investigation of similar accidents to 
develop potential root causes and appropriate countermeasures. As you 
may recall, in 1999, the NTSB embarked on a multi-year initiative to 
improve heavy vehicle transportation safety, and conducted four public 
hearings on truck and bus safety issues. As a result of those hearings, 
individual reports and a number of safety recommendations on each issue 
either have been or will soon be issued, including:

  <bullet> Technology applications for heavy vehicle safety;
  <bullet> Adequacy of the commercial drivers license medical 
        certification process;
  <bullet> Intrastate truck safety; and
  <bullet> Collision warning technology.

    A number of recent highway safety accomplishments have resulted 
from NTSB highway investigations:
    Heavy Trucks--In October 2000, a Freightliner dump truck lost 
primary braking capability near Lincoln, Nebraska, killing two people. 
Our investigation revealed that a brake pin had fractured, rendering 
the service brakes inoperative. Working closely with the NTSB, 
Freightliner, in November 2000, voluntarily recalled approximately 
133,000 trucks to replace the defective brake pedal push rods without a 
safety recommendation being issued.
    Highway/Railroad Grade Crossing--In March 2000, a school bus 
carrying elementary school children failed to stop at a railroad grade 
crossing and was struck by a CSX freight train. The accident resulted 
in the deaths of three students and three serious injuries. As a result 
of NTSB discussions with CSX, the railroad corrected a sign error, 
replaced a missing whistle post at another crossing, surveyed signs in 
the rail subdivisions for accuracy, and reiterated to employees rules 
dealing with the installation, maintenance and inspection of crossing 
signs.

Marine
    The NTSB investigates major marine casualties occurring on the 
navigable waters or territorial seas of the United States, or involving 
a vessel of the United States, under regulations agreed to by the Board 
and the Department of Transportation. On-going marine investigations 
include accidents involving the grounding of the U.S. passenger ferry 
Finest during an approach to a New Jersey ferry terminal; the collision 
of the U.S. nuclear attack submarine USS Greeneville with the Japanese 
fisheries training vessel Ehime Maru near Pearl Harbor, Hawaii; the 
fire aboard the passenger ferry Seastreak in New York, New York; and 
the collision of a U.S. Coast Guard patrol boat with the small 
passenger vessel Bayside Blaster in Miami, Florida. We are also 
conducting a special investigation regarding fire standards for small 
passenger vessels.
    Several recent marine safety accomplishments have resulted from 
NTSB marine investigations:
    Cruise Ship Safety--Because precious time is often lost between the 
detection of smoke and the time that passengers or crew are ultimately 
notified of the problem, the NTSB repeatedly has urged that the cruise 
ship industry install smoke alarms that sound where the smoke is 
detected, not just in a remotely located control room. Over the last 
year, we received commitments from several cruise lines to comply fully 
with our recommendations. Combined, these seven cruise lines operate 50 
cruise ships with a capacity to carry more than 76,000 passengers and 
approximately 30,000 to 40,000 crew. As a result, improved shipboard 
fire safety will be available for more than three million passengers 
and more than a million crewmen annually.
    Permanently Moored (Gaming) Vessels--In September 2000, following 
our investigation of the near-breakaway of a gaming vessel moored in 
the Mississippi River in St. Louis, Missouri, the Safety Board issued 
recommendations to improve the safety of permanently moored gaming 
vessels on U.S. navigable waters. According to Coast Guard data, there 
are 30 permanently moored gaming vessels on the Mississippi and 
Missouri Rivers, with an aggregate capacity of 50,000 people. Coast 
Guard policy, established after this accident, requires owners/
operators of permanently moored vessels to protect them from waterborne 
and current-related risks. Failure to comply with this requirement will 
result in vessels not being designated as a permanently moored vessels. 
The vessels will also remain under Coast Guard jurisdiction and require 
a certificate of inspection.

Pipeline/Hazardous Materials
    The NTSB investigates pipeline accidents in which there is a 
fatality, substantial property damage, or significant injury to the 
environment. Selected areas of emphasis include accidents involving 
aging pipeline infrastructure failures, government pipeline safety 
regulatory programs or industry practice inadequacies, accidents 
involving recognition or response delays, and environmental damage 
following the release of a significant amount of product that threatens 
water supplies. On-going major NTSB pipeline investigations include 
accidents that occurred in Bellingham, Washington, involving Olympic 
Pipeline Company; Chalk Point, Maryland, involving Potomac Electric 
Power Company; and Carlsbad, New Mexico, involving El Paso Natural Gas 
Pipeline Company.
    Several recent pipeline safety accomplishments have resulted from 
NTSB pipeline investigations:
    Pipeline Integrity--The continued operation of pipelines with 
discoverable integrity problems has been a recurring issue in Safety 
Board investigations and numerous safety recommendations have been 
issued to address our concerns. We are encouraged that the Research and 
Special Programs Administration (RSPA) recently published final rules 
that will require integrity assessments for liquid pipelines in high 
consequence areas, and requires operators to assess the integrity of 
pipelines using in-line inspection tools, pressure tests, or other 
technologies that will provide equivalent results.
    Data Collection--The Safety Board has been concerned with RSPA's 
data collection process. Over the years, we have made recommendations 
to correct trend analysis and pipeline operator performance evaluation 
inadequacies. In May 2001, the Office of Pipeline Safety (OPS) issued 
new accident reporting requirements for gas transmission pipelines, and 
in January 2002, OPS issued new accident reporting requirements for 
hazardous liquid pipelines. We believe the new reporting requirements 
will include information that will assist the Safety Board with 
operator evaluation and trend analysis.
    Excavation Damage--Excavation damage prevention was removed from 
the Board's ``Most Wanted'' list of safety issues last month. We are 
encouraged by OPS research to improve pipeline location technologies, 
improve inspection technologies to find pipe defects, monitor for 
mechanical damage and leaks in real time, and improve technologies to 
avoid damage to underground facilities and to increase the security of 
pipelines. We are hopeful that this on-going research, which addresses 
many Safety Board recommendations, will lead to increased excavation 
prevention safety.

Railroad
    The NTSB investigates railroad accidents in which there is a 
fatality or substantial property damage, or that involve a passenger 
train. There are over 6,500 railroad accidents and incidents reported 
annually. Because of limited resources, the Safety Board investigates 
fewer than 25. On-going major NTSB railroad investigations include a 
CSX tunnel fire in Baltimore, Maryland; an Amtrak derailment in 
Crescent City, Florida; a grade crossing accident involving an Amtrak 
train and a tractor-trailer in Coosawhatchie, South Carolina; a 
collision between a freight train and a commuter train in Placentia, 
California; and a derailment that resulted in the release of hazardous 
materials in Minot, North Dakota. The Board will hold a public hearing 
on the Minot accident in our Board Room and Conference Center in July 
2002.
    Several recent railroad safety accomplishments have resulted from 
NTSB railroad investigations:
    Freight Train Brakes--Significant progress on freight train braking 
systems was made with the promulgation of new power brake regulations 
in 2001. The FRA issued new regulations that close several outstanding 
recommendations concerning cold weather operations, steep-grade train 
handling practices, and dynamic brake requirements to prevent ``run-
away'' trains. Additionally, train crews will be provided with training 
in the use of air brake retaining valves and will be required to have 
knowledge of their trailing tonnage. The regulations address many 
Safety Board recommendations issued regarding this subject.
    Positive Train Control (PTC) Since its formation in 1967, the NTSB 
has investigated numerous major collision accidents, most of which 
could have been prevented had PTC systems that ensure safe train 
separation been in effect. We are currently investigating a number of 
railroad collision accidents that may have been prevented had PTC 
systems been in place, including a recent head-on collision that 
occurred between a freight train and a commuter train in Placentia, 
California, on April 23, 2002. These systems have been developed and 
are being tested. For example, Amtrak employed a 118-mile PTC system 
along the high-density Northeast Corridor between New Haven, 
Connecticut, and Boston, Massachusetts. Amtrak has installed another 76 
miles of PTC on a Michigan line. Additional projects include an 
advanced speed enforcement system with PTC capabilities, which is 
planned for installation on 540 track miles owned by New Jersey 
Transit. In addition, a positive train control system is being 
designed, tested, built, and installed on a 123-mile section of the 
high-speed Chicago-St. Louis Corridor by the AAR in cooperation with 
the Illinois Department of Transportation.

NTSB Board Room and Conference Center
    Finally, since the Board's last reauthorization, the NTSB 
inaugurated in Spring 2000 a new Board Room and Conference Center at 
its headquarters. The new complex significantly increases the Board's 
space and capabilities for Board meetings and other agency events. The 
main auditorium holds close to 400 people, compared to about 100 in the 
old facility. It also includes state-of-the-art electronics equipment 
and areas designed for the news media, family members, private 
conferences and meetings. Because of the size of the room, we are now 
able to hold investigative public hearings at the facility. It is 
estimated that we saved taxpayers over $100,000 in calendar year 2000 
when we held the Alaska Airlines flight 261 accident hearing in our 
Board room.

REAUTHORIZATION REQUEST
    Mr. Chairman, the Board is requesting two changes to its 
authorizing authority. Attached to our statement is a copy of our 
formal request, but the following is a summary of each issue.

Marine Priority
    This amendment would give the NTSB the same priority in marine 
accident investigations as it has in all other modes of transportation. 
The NTSB included a proposal in our Senate reauthorization request of 
1996 for NTSB marine investigations to have priority over other federal 
investigations. In 1999, the NTSB included another request in our 
reauthorization on this issue to clarify the relationship with the 
Coast Guard. The Congress responded with the National Transportation 
Safety Board Amendments Act of 2000, which included a deadline of one 
year for the revision of our inter-agency Memorandum of Understanding 
(MOU) with the Coast Guard and language directing the agencies to 
clarify the circumstances for NTSB to lead investigations.
    We have met with the Coast Guard on numerous occasions and 
exchanged proposals to amend the MOU. Our most recent proposal 
submitted to the Coast Guard would have enabled the NTSB to elect to 
take the lead in no more than five accidents per year. The Coast Guard 
has thus far indicated no inclination to permit NTSB to elect 
leadership in any investigation, and the negotiations between the 
agencies are currently at a standstill.
    Because it appears that our two agencies will not reach an 
agreement, and we will not find a mutually acceptable formula that 
would permit NTSB to elect leadership in even a limited number of 
accidents, we are again asking for congressional intervention.
    Be assured, Mr. Chairman, that although the Board has asked for 
congressional intervention, our negotiations have not stopped. In fact, 
I plan to soon meet with Deputy Secretary Michael Jackson and the new 
Coast Guard Commandant Admiral Thomas Collins to pursue the matter.

Clarification of Family Affairs Responsibilities in Intentional 
        Criminal Acts
    Since passage of the Aviation Family Disaster Assistance Act in 
1996, the NTSB has been responsible for coordinating Federal efforts to 
assist family members following an aviation disaster. The legislation 
wisely triggers our family affairs response regardless of the cause or 
suspected cause of the occurrence. The intent was to provide family 
assistance without any delay due to uncertainty about which agency 
would lead the investigation. Uncertainty in Federal response to meet 
the needs of families would lead to confusion, neglect, distrust, and 
further traumatize the next of kin of the victims.
    However, when investigative responsibility is transferred to the 
FBI, the NTSB believes that the responsibility for family assistance 
should be transferred as well. When the FBI has investigative priority, 
the site of the crash is considered a crime scene and access to the 
scene and release of information about the investigation are much more 
restricted than when the NTSB has investigative priority. Following the 
events of September 11, 2001, it was apparent that an agency that is 
not responsible for the investigation cannot be responsible for 
coordinating family affairs support, such as facilitating victim 
recovery and identification or briefing the families.
    Additionally, since September 11th, the FBI has reorganized its 
Office of Victims Assistance, hired a program director to work with the 
NTSB and other agencies to support victims and their families following 
terrorist/criminal events resulting in mass fatalities, and is in the 
process of hiring more than 100 victim assistance staff that can be 
organized into quick response teams in the event of mass fatalities. 
Although the NTSB is certainly ready to assist, we believe that the FBI 
and Department of Justice should undertake family assistance 
responsibilities when the event is deemed criminal.

NTSB Academy
    The NTSB's reauthorization request also provides for budget and 
personnel resource levels to sustain the NTSB's Academy. The NTSB has 
for many years provided training for its investigators and other 
transportation accident investigators from around the world. We also 
provide training for other U.S. and international government agencies 
and industry representatives on how to comply with the Aviation Family 
Disaster Act following major transportation accidents. The academy will 
enable the NTSB to consolidate and formalize all NTSB training 
activities. In fact, we are currently enrolling major domestic and 
international air carriers in a family assistance course to be held 
next month. The facility will also house the reconstruction of the TWA 
flight 800 accident aircraft and provide state-of-the-art classrooms 
and laboratory space for accident investigation.
    A 20-year lease agreement with The George Washington University to 
build a 72,000 square foot training academy in Loudoun County, Virginia 
has been signed and construction began in December 2001. It is expected 
that the Academy will open in fiscal year 2003, and we are looking 
forward to the opportunities it will provide to advance transportation 
safety worldwide.
    Mr. Chairman, that completes my testimony and I will be happy to 
respond to any questions you may have.

    Senator Rockefeller. Thank you very much. I have just a 
couple of questions. I gave a speech, which I thoroughly 
enjoyed giving, several weeks ago in which I sort of took apart 
the European Community for its protectionist policies on 
aircraft, and was visited by most of Europe within 2 weeks 
after that, and one of the things that I talked about, not to 
enlarge my role, was the question of aerospace research. You 
have to have the best in order to do what you need to do, 
whether it is American Airlines Flight 587, or whatever. 
Presumably you have the vertical stabilizers, the composites, 
all of those kind of things as questions.
    Now, you can use NASA, you can use private labs, and you 
presumably have some of your own capacity. I would like to 
understand two things. One is, what do you have in the way of 
research, and to the extent that you do not have it, where do 
you have to go, and can you achieve access in the real time 
that you need it, let us say, into, for example, NASA or 
private labs? Can you get what you want when you need it?
    Ms. Blakey. That is a good question, and a very important 
one. As you know, we have a small staff, less than 450 on 
board, and it would be impossible even under the best of 
circumstances to cover all possible technical issues with 
state-of-the-art knowledge, which is really exactly what is 
required in terms of research, and getting to the bottom of 
issues in these accidents.
    I have been very please so far by the kind of response we 
have received. Certainly we do have some depth on our own staff 
in terms of composite materials, and in terms of knowledge, 
therefore, of what is a coming trend, if you will, in aircraft 
manufacture, where more and more composites are taking the 
place of metal in terms of the overall shape of our aircraft 
today.
    That said, we have certainly gone outside, and we did so 
immediately following the crash of 587. We turned to NASA, 
because they have had, as you know, extensive experience in 
spacecraft, as well as support in terms of military aircraft 
for over 20 years, and doing analysis and research and R&D on 
composite materials, and therefore we have had the vertical 
stabilizer, the rudder down at NASA Langley all these months, 
where they have been doing initially noninvasive testing, and 
now we are actually moving toward the more destructive forms of 
testing to look at the question of what kind of failure may or 
may not have taken place in terms of composite materials.
    I have also been pleased, though, also by how the private 
sector stepped up, and others have volunteered their help. I 
will tell you that right now we in fact are using a very large 
CAT scan, that the only one we know about is in the private 
sector. It is owned by Ford Motor Company and we have, 
therefore, the vertical stabilizer out at Ford at the moment, 
where we are looking at the questions of, could delamination 
have occurred somewhere down in the depths, because that 
machine is really able to look at each and every layer and 
analyze that for us in a way that would not have been possible 
otherwise, and so I use those as examples, but we have also 
turned to Sandia.
    We have looked to others to give us assistance on this 
crash, and I see that being more and more the role that the 
board will look to for those both in terms of Government 
research agencies as well as the private sector.
    I would also mention one other thing, which is one reason 
why I put such emphasis on and stock in our academy. It will 
have a laboratory facility, which I think will give us much 
more capacity than we have right now. It will be larger, it 
will have more state-of-the-art equipment, but also, because it 
is a teaching facility, I think it will have a reason to draw 
the best and the brightest from around the world to come there 
to teach.
    What we are looking to do is to bring our investigators up 
with the knowledge of those individuals from around the world 
to really state of the art as the academy moves forward, and I 
think that is going to be an exciting opportunity to have, if 
you will, the kind of synergy and cross-fertilization that an 
institution like that can provide.
    Senator Rockefeller. I am encouraged by your answer, but it 
still leaves open the question. It is human nature, and the 
NTSB-Coast Guard situation is an example of that, that when, 
whether it is a Government agency or a private lab, one which 
is busy, underfunded and overwhelmed and the other of which is 
overwhelmed, needs to make money, and has things that they are 
working on at the time that you request their assistance in 
research, that being private labs, you paint a picture wherein 
in the sense that you get the immediate response that you want.
    Now, I can understand that in something where 260 people 
are killed. There are a lot of accidents that you investigate 
that are less than that which also require less traumatic--less 
dramatic, not traumatic, but dramatic at that. Do you get the 
same immediate response? Because if you do, it sort of works 
against institutional human nature, so I want to be sure that 
you are not just praising your partners here.
    Ms. Blakey. Well, my experience is limited to the last 9 
months, because that is how long I have been on the job, so my 
first-hand knowledge of this, therefore, does not go back that 
long. But that said, certainly the second worse crash in U.S. 
aviation history has galvanized help and support in a way that 
I am not aware of anyone failing to step up to the plate when 
we have asked for assistance. The FAA has contributed. 
Certainly we have had help from the parties involved, a lot of 
support out of Toulouse, as you would appreciate, since it was 
an Airbus aircraft, and so I am not aware of any less than 
complete and immediate response when we have asked for it.
    Some things have not happened as fast as we would like for 
them to have because there have been technical issues involved. 
I could go down a number of things that may have been a bit 
slower than we would have liked, but as a question of 
willingness and a question of resources, I do not think we have 
experienced that.
    There have been times when we would like to have the 
contracting for things move forward more quickly. In fact, I 
know that we are being held up right now pulling a piece out of 
Jamaica Bay because we have not been able to get the actual 
contract let yet, so there are moments like that, but I think 
they are endemic to Government work, and any help you could 
give us, obviously, on that front we would be very pleased.
    Senator Rockefeller. I think Senator Nelson and I would 
both agree that if you run into problems on that you should use 
us to be helpful, because I think instant response is all you 
can do, and Senator Nelson has to leave very shortly, so I will 
call on him.

                   STATEMENT OF BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. I am just glad to be here to support you, 
Mr. Chairman, and I have to chair the Foreign Relations 
Committee. I have elevated in seniority considerably, but they 
could not find anybody else to chair the meeting.
    I think that this little agency is an example of what 
Government should be about, and the kind of cooperation that 
you have with another little agency known as NASA is, again, 
what we like to see, the kind of efficiencies. That as a little 
agency that is having difficulty with its budget as well, and 
yet you all perform such a major service to the country, 
indeed, to the world. You have my support.
    I had a glimpse into this agency years ago from a long-time 
friend named Joe Nall of North Carolina, who lost his life on 
one of the trips in an airplane accident having to do with the 
NTSB, so I have been a fan of this agency for some period of 
time.
    Thank you, Mr. Chairman.
    Senator Rockefeller. Thank you, Senator Nelson. Have a good 
hearing.
    On the Coast Guard situation, this is what, a 10-year 
process?
    Ms. Blakey. It has been 10 years, yes.
    Senator Rockefeller. It is perplexing, and I can see two 
reasons for it. One, I read my paper this morning and they are 
getting a big bump in budget. You know, hopefully you will get 
something, too, but I did not read about it in the paper, and 
there are two answers, possible answers at least, and there may 
be more, to this. One is the one I suggested, and that is the 
classic bureaucratic behavior. I have this, I possess this, I 
will not change it.
    We have that up here. We have people from regulatory 
agencies that come and virtually admit that things do not work, 
but they said, if you want us to do things differently, then 
change the law, which then throws you immediately into the 
second problem, which is the politics involved with the Coast 
Guard and this Committee and others.
    I have spent a long time in West Virginia and have never 
detected an ocean, but we nevertheless support the Coast Guard 
through our tax dollars, and I care about that. I would really 
be interested--I mean, it is just very annoying when you have a 
lot of people dying, or a few people dying, or people injured, 
and you have an accident and you need an investigation, and 
then you get two agencies of Government, both of whom are sworn 
to work for the people of the country, fighting.
    Now, it may only be one party. It may be only one party, 
but I think our general view in talking with Sam Whitehorn 
behind me is that this is going to get straightened out or we 
are just going to give you the authority, and the Coast Guard 
is going to lose, but I would be interested in what your 
analysis is of what you have heard of why behavior like this 
happens, and maybe it is us.
    Maybe it is not the Coast Guard. Maybe it is the Coast 
Guard egged on by those who on this Committee and elsewhere who 
protect the Coast Guard and who want to for good reasons 
protect the Coast Guard. How do you read it? Why has there not 
been more progress? It is embarrassing, is it not?
    Ms. Blakey. Well, I will have to say, I am glad I have not 
been here for the full 10 years of it, so I cannot speak for 
all the dynamic, but what it would appear--and by the way, I 
must tell you that 10 years ago I was at the Department of 
Transportation working well with the Coast Guard and have 
tremendous admiration for the Coast Guard. It is one of those 
agencies that wears a white hat for good reason, so from that 
standpoint I have a healthy respect for their positioning and 
concerns.
    What I suspect is the following. The Coast Guard, of 
course, has a 200-year-plus history, and are used to doing 
things a certain way. They also carry responsibility for 
enforcement issues, for penalties, for making certain that the 
regulations are carried out to the letter, et cetera. That is 
the mind set that they come into this with, which immediately, 
of course, goes to issues of blame and what, therefore, should 
be the penalty involved.
    That is not conducive to learning from the parties involved 
what really went on in an accident investigation, quickly 
getting to the bottom of things in terms of the probable cause 
and, frankly, looking from a much broader standpoint at what 
the issues are involved that really address public safety. They 
may or may not be contained within the letter of a set of 
already prescribed regulations, and that broader set of issues 
is really our perspective and what we care about, as well as, 
as I say, we are not looking to cast blame.
    We carry no enforcement authority, we carry no regulatory 
authority, and that does mean that the parties involved will 
cooperate with the NTSB, I find remarkably so, in our accident 
investigations. I think the public needs that where you are 
talking about a marine accident when there are significant 
issues of public safety. We are only asking for a handful of 
investigations here. The rest, the Coast Guard should proceed 
as they do, but in those where public safety is really 
challenged, and there are a handful every year, we think that 
it is important that we be given the authority to lead it so 
that the environment that goes with an enforcement action with 
the marine board, which is a very formal board, and the way the 
Coast Guard conducts their investigations can lead to real 
liability issues for individuals. We think that needs to be set 
aside so that we are able to get to the bottom of what really 
went on, and try to make better investigations for the public 
at large.
    Senator Rockefeller. It just does not make a whole lot of 
sense to me to have an investigation about safety where people 
have lost their lives or limbs or suffered in some way and then 
to have a bifurcated responsibility. I mean, yes, you do have 
the majority of it, but you do not have all that you need. 
Their life is going to grow a great deal more complicated for 
the next 20 or 30 years, and your mission continues unabated, 
and I think you ought to have that responsibility. How often do 
the two parties try to work this out? Do you sort of meet once 
a year or something, or is there kind of an ongoing, active--or 
does it just come to a stalemate?
    Ms. Blakey. Well, we have met, I believe it is six or seven 
times in the last 12 months on this, so this effort to achieve 
an MOU has been a very active one on both sides, but we really 
have got to a stalemate. I think we got to the point where 
everyone agreed we simply cannot bridge this difference in 
positioning.
    Senator Rockefeller. So it is a stalemate?
    Ms. Blakey. I would like to think that with the new 
commandant perhaps something would change, but we feel at this 
point we need to come to you.
    Senator Rockefeller. Okay, a final question, and then I 
have some I want to submit to you, if that is okay.
    Ms. Blakey. Absolutely.
    Senator Rockefeller. You have asked for $76.7 million, 
which is about $2.8 million more than the President's budget. 
He is fairly exacting about that budget. I want to give you a 
chance to make a case for your needs for additional funding, 
and the 16 full-time equivalent staff years that you seek.
    Ms. Blakey. We are basically, of course, looking at the 
authorization level with an eye to what we believe should be 
the authorized level for the agency. We do understand that 
there are budget constraints, and that everyone must operate 
within them, and we certainly intend to also.
    Challenging for us right now is that we have a new academy 
that is a brand-new responsibility. We are in the early stages 
of construction and we are looking at business models and ways 
that we can look for tuition to supplement the cost of running 
that academy, et cetera.
    At the outset, obviously this is going to have to be borne 
through appropriated funds. As you can appreciate, this is 
causing a set of needs that were not there several years ago. 
Once it is up and running, we are going to have a functioning 
business model that will certainly supplement from a revenue 
standpoint the financial needs there.
    We also do see, and you touched on this earlier, the need, 
as we are moving into ever more complex accidents, for a 
greater degree of specialists, if you will, on our staff in 
terms of our investigative force. It has become apparent that 
if we are going to be able to respond to the number of 
accidents and to the complexity of accidents that we are seeing 
now, and I must tell you we have launched a remarkable number 
of accidents in other countries this winter and spring, as I 
look down where we have had our investigators deployed. It is 
not around the corner, it is around the world, and these often 
involve U.S.-manufactured aircraft with vital interests of ours 
at stake. But nevertheless, we need more bench, because right 
now if your specialist on structures is in Taiwan and something 
happens here, it really does cause some vital issues from our 
standpoint. We would like to develop a greater degree of 
expertise as well in the new computer systems, the software 
challenges that are there, because the next accident could very 
well be caused by an error in a line of computer code as much 
as it may be in the mechanical system.
    So that is the kind of strength we are looking to establish 
with the additional positions, and as I say, we will work 
within the constraints that we need to, but that is the concern 
that we have in bringing the request before you.
    Senator Rockefeller. It is a very interesting point, 
because you mentioned Taiwan. They are in the process of 
developing a new really high performance corporate jet, but it 
is going to be in part made in this country and, of course, it 
will be used in this country or sold in this country. It is 
going to have to be certified by the FAA, and people forget 
that often.
    They think that well, here Taiwan is building a jet, or 
somebody is building something or another, and yet the reach of 
the American Government to make sure that the 30,000 parts that 
go into that jet, each and every one of them has to be 
certified and approved, cleared, tested, and then finally 
certified by the FAA, otherwise Taiwan does not fly jets, and 
they do not make jets.
    So regarding the reach of our Government in terms of safety 
approval and other important missions, we think in terms of the 
more conventional and terribly important areas of military and 
others. But this reaches into approval of parts and 
investigation of accidents, as it well should, because we have 
very high standards, and we are not going to see those 
compromised.
    So anyway, I support very much what you are doing, and as 
Senator Nelson, for a discrete and very hard-working agency. I 
will support your efforts completely.
    Ms. Blakey. Thank you, and I should also probably before 
ending, because I thought after Senator Nelson left, in 
mentioning the small agency that is supporting us, NASA, that 
they are doing this entirely out of their own budget, too. They 
have not asked for any transfer of funds from us, so that shows 
the level of cooperation that I think we have.
    Senator Rockefeller. Which is important, because they have 
been financially challenged from the start.
    Ms. Blakey. That is exactly right, and the fact that they 
did not ask us to reach into our pocket at all I found most 
impressive.
    Senator Rockefeller. Ms. Blakey, thank you very, very much. 
We are very honored to have you here. I am sorry this is a 
short hearing, but my colleagues have no further questions.
    Ms. Blakey. Thank you very much.
    Senator Rockefeller. Thank you.
    [Whereupon, at 10:20 a.m., the Committee adjourned.]


</pre></body></html>
